HHS/OIG, Audit -"Ineligible Medicare Payments To Skilled Nursing Facilities Under The Administrative Responsibility Of Medicare Northwest,"(A-05-03-00063)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments To Skilled Nursing Facilities Under The Administrative Responsibility Of Medicare
Northwest," (A-05-03-00063)
October 27, 2003
Complete Text of Report is available in PDF format
(143 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare Skilled Nursing Facility (SNF) payments
contained in our database of payments made under the administrative responsibility of Medicare Northwest.  We estimated
that $2.1 million of ineligible SNF payments were made under the administrative responsibility of Medicare Northwest during
calendar years 1997 through 2001.  The overpayments occurred because of the absence of an automated cross-check, within
the Centers for Medicare & Medicaid Services Common Working File and the Fiscal Intermediary’s claims processing
systems, verifying that a three consecutive day inpatient hospital stay occurred prior to SNF admission.  Medicare
Northwest concurred with the findings and recommendations.